July 8, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Cummings v. Premier Rehab Keller, P.L.L.C., No. 20-219

Dear Mr. Harris,
Pursuant to Supreme Court Rule 30.4, the parties jointly request a seven-day
extension to file their respective briefs on the merits in the above-referenced case. On
July 2, 2021, the Court granted certiorari in this case. We have conferred with counsel
for respondent, Premier Rehab Keller, P.L.L.C., and the parties jointly propose the
following briefing schedule: Petitioner’s opening brief and any joint appendix shall be
due on August 23, 2021, and respondent’s brief shall be due on September 29, 2021.
Under this schedule, petitioner’s reply brief will be due on October 29, 2021.
Thank you very much for your consideration.
Respectfully submitted,

Andrew Rozynski, Esq.
EISENBERG & BAUM, LLP
24 Union Square East, PH
New York, NY 10003
Main: (212) 353-8700
Fax: (917) 591-2875
arozynski@eandblaw.com
Counsel for Petitioner
cc:

All Counsel of Record

EISENBERG & BAUM, LLP
REAL ESTATE•CORPORATE•ESTATE PLANNING•DEAF RIGHTS
24 UNION SQUARE EAST - PENTHOUSE NEW YORK NY 10003
PH 212 353 8700 FAX 917 591 2875
EandBLaw.com

